                    U.S. DEPARTMENT OF LABOR
                 EVALUATION OF GRANT CLOSEOUT
                      PRACTICES APPLIED TO
              JOB TRAINING PARTNERSHIP ACT GRANTS

            GRANTS AWARDED TO THE COMMONWEALTH
                        OF KENTUCKY

               INDEPENDENT ACCOUNTANTS’ REPORT
              ON APPLYING AGREED-UPON PROCEDURES




                 JULY 1, 1997 THROUGH JUNE 30, 2000



R. Navarro & Associates, Inc. prepared this report under contract to the U.S.
Department of Labor, Office of Inspector General, and by acceptance it becomes a
report of the Office of Inspector General.


                        __________________________________________
                        Assistant Inspector General for Audit
                        U.S. Department of Labor




                                                    Report No.: 04-03-015-03-340
                                                    Date Issued: May 5, 2003


                   R. NAVARRO & ASSOCIATES, INC.
                                                    TABLE OF CONTENTS



ACRONYMS .................................................................................................................................iii

INDEPENDENT ACCOUNTANTS’ REPORT ON APPLYING AGREED-UPON
PROCEDURES............................................................................................................................... 1

SUMMARY OF FINDINGS .......................................................................................................... 2

BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY .......................................... 4

          BACKGROUND ................................................................................................................ 4

          OBJECTIVES, SCOPE AND METHODOLOGY ............................................................. 4

PROCEDURES AND FINDINGS.................................................................................................. 5

EXHIBIT I – COMPLETE TEXT OF THE COMMONWEALTH OF KENTUCKY’S
RESPONSE.....................................................................................................................................9




                                                                      ii
                                   ACRONYMS


BTADD   Buffalo Trace Area Development District
CWD     Cabinet for Workforce Development
DOL     U.S. Department of Labor
EKCEP   Eastern Kentucky Concentrated Employment Program, Inc.
ETA     Employment and Training Administration
FSR     Financial Status Report
FY      Fiscal Year
SFY     State Fiscal Year
JTPA    Job Training Partnership Act
NOO     Notice of Obligation
OIG     Office of the Inspector General
PY      Program Year
SEFA    Schedule of Expenditures of Federal Awards
WIA     Workforce Investment Act




                                          iii
Mr. Elliot P. Lewis
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor


                       INDEPENDENT ACCOUNTANTS’ REPORT
                      ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures enumerated in the “Procedures and Findings” section of this
report. The U.S. Department of Labor (DOL), Office of Inspector General (OIG), agreed to these
procedures. We completed the procedures solely to assist OIG in evaluating the Commonwealth
of Kentucky’s closeout practices for Job Training Partnership Act (JTPA) grants awarded by the
DOL Employment and Training Administration (ETA) from July 1, 1997 through June 30, 2000.

Management of the Commonwealth of Kentucky is responsible for closing JTPA grants in
accordance with applicable regulations and requirements established by ETA. ETA is
responsible for processing and certifying grant closure, and recording final obligation,
expenditure and payment information in the DOL’s general ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation
standards established by the American Institute of Certified Public Accountants, and Government
Auditing Standards issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of your office as the specified user of the report.
Consequently, we make no representation regarding the sufficiency of the procedures performed
either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are described in the “Procedures and Findings” section of this
report.

We were not engaged to, and did not, perform an examination, the objective of which would be
the expression of an opinion on the accompanying information obtained from the respective
entities. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to
be, and should not be used, by anyone other than the specified party.



May 16, 2002
                                 SUMMARY OF FINDINGS


The Commonwealth of Kentucky, Cabinet for Workforce Development (CWD) submitted its Job
Training Partnership Act (JTPA) closeout package to the U.S. Department of Labor (DOL),
Employment and Training Administration (ETA), on October 18, 2001, after requesting an
extension through October 15, 2001. We obtained the final JTPA expenditures reported on the
final closeout report, and found that the expenditures reported reconciled to the CWD’s
accounting records. In addition, the final expenditures reported were reasonable based on
amounts previously reported to ETA.

The JTPA program was audited as a major program in Kentucky’s single audits for State Fiscal
Year (SFY) 2000 and SFY 1999. Two findings from the single audit reports remain unresolved,
as follows:

1.     In the SFY 1999 Single Audit, the auditors found that the Cabinet for Workforce
       Development, Department for Employment Services, inappropriately transferred JTPA
       expenditures among the various SubCommonwealth Grantees (SSGs). This finding was
       not fully resolved as of the SFY 2000 single audit.

2.     In the SFY 1999 and SFY 2000 Single Audits, the auditors reported that the Cabinet for
       Workforce Development, Department for Training and ReEmployment, did not
       sufficiently track required subrecipient audits. In both years, the auditors noted several
       instances in which the DTR did not obtain, review, reconcile, and/or resolve subrecipeint
       audits in a timely manner.

We visited two subrecipients, Eastern Kentucky Concentrated Employment Program, Inc.
(EKCEP) and Buffalo Trace Area Development District (BTADD) and found that final
expenditures reported to the Commonwealth did not fully reconcile to the subrecipients’
accounting records, as follows:

1.     EKCEP issued an Awardee’s release for $18,711,893, however, the supporting
       documentation was for $19,314,324, resulting in a difference of $602,431. EKCEP had
       previously reported the $602,431 to CWD on the June 1999 Final Expense Report. The
       Commonwealth correctly included the $602,431 in the reports to ETA. A corrected
       release has not been submitted by EKCEP to the CWD; however, there was no dollar
       effect on the costs reported to ETA.

2.     BTADD had a $213,172 difference between the Awardee’s release and actual
       expenditures. A revised Awardee’s release was subsequently submitted to CWD showing
       the corrected amount.




                                                2
Commonwealth of Kentucky’s Response

The Commonwealth of Kentucky did not have any written comments on our draft report.
Kentucky’s response is included in its entirety at Exhibit I.




                                             3
             BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY


Background

The JTPA was enacted in 1982 to provide job training programs which would afford
disadvantaged youth and adults with the training necessary to obtain productive employment.
The JTPA program was repealed on June 30, 2000, when ETA implemented a successor
program, authorized by the Workforce Investment Act. The closeout of active JTPA grants
began in July 1999, with final closeouts due no later than December 31, 2000. Unspent funds
from the PY 1998 and PY 1999 JTPA State grants were authorized for transition into the WIA
program.

All JTPA closeout information is sent to the DOL, ETA, Office of Grant and Contract
Management, Division of Resolution and Appeals. According to 20 CFR, Part 627.485, JTPA
grants should normally have been closed within 90 days after the time limitation for expenditure
of JTPA funds. For PY 1997 grants, the 90-day limitation expired September 30, 2000.
However, in certain instances, ETA extended the reporting beyond that specified in the program
regulations. According to instructions set forth by ETA in the JTPA Financial Closeout
Technical Assistance Guide, final JTPA financial reports for PY 1998 and PY 1999 grants should
have been submitted no later than December 31, 2000.

Objectives, Scope and Methodology

In general, our procedures were designed to determine if: the Commonwealth of Kentucky closed
its JTPA grants on a timely basis in accordance with ETA instructions; amounts reported in the
closeout packages and/or the final cost reports were reasonable and supported by the
Commonwealth=s and subrecipients’ accounting records; and there were unresolved audit
findings pertaining to JTPA awards.

Our agreed-upon procedures include the JTPA funds awarded to the Commonwealth of Kentucky
for PYs 1997, 1998 and 1999, and FYs 1997 and 1998. Procedures were applied to grant
activities reported by the State and two subrecipients, Eastern Kentucky Concentrated
Employment Program, Inc. and Buffalo Trace Area Development District, on final closeout
reports.




                                               4
                            PROCEDURES AND FINDINGS


1.   Identify the Commonwealth’s JTPA grants to be included in the scope of these
     procedures, and the obligations and final reported expenditures related to each.

     The JTPA grants awarded to the Commonwealth and included in the scope of these
     procedures are as follows:

                                                  Per Grantee Closeout
                               Federal           Total                                 Net
                             Obligations      Reported          Inter-title        Expenditures
         Year and Title       Per NOO         Expenditures      Transfers         (Computed)

      PY 97 II & IIIF        $ 28,475,979      $ 29,085,531      $ 2,238,412       $ 26,847,119
      FY 97 II B               13,445,916         11,207,504     (2,238,412)         13,445,916
      PY 97III EDWAA-D         12,336,150         11,297,590                  0      11,297,590
      PY 98 II & IIIF          35,876,644         29,272,502        2,046,482        27,226,020
      FY 98 IIB                14,861,254         12,375,244     (2,046,482)         14,421,726
      PY 99 IIB & IIC          15,724,321          6,890,917                  0       6,890,917
      PY 99 III EDWAA-D         1,290,818           596,358                   0         596,358
       Total                 $122,011,082     $100,725,646      $             0    $100,725,646



2.   Determine if the JTPA grants awarded to the Commonwealth were closed on a
     timely basis in accordance with ETA instructions.

     The CWD submitted a request and received an extension of its closeout package through
     October 15, 2001. However, the signed copy of the closeout package was not submitted
     until October 18, 2001.

3.   Inspect the closeout information reported to ETA, and determine if the information
     was reasonable based on data reported on final FSRs.

     The State submitted final FSRs with the closeout package; consequently, there were no
     differences between the FSRs and the closeout. As an alternative procedure, we
     inspected the JTPA reconciliation worksheet prepared by ETA which identified the final
     cost entries required to be recorded in the DOL’s general ledger. This worksheet showed
     an adjustment increasing costs by $9.5 million, from $91.2 million to $100.7 million. Of
     the total adjustment of $9.5 million, $8.6 million represented costs recorded in a previous
     accounting system used to record JTPA financial information. When Kentucky converted
     to a new accounting system, these costs could not be identified by individual grant and
     were not reported to ETA on previous FSRs. However, prior to submitting the closeout
     package and final FSRs, the costs were identified and reported to the proper grant and


                                              5
     program. Accordingly, the amounts reported on the closeout package are considered to
     be reasonable based on amounts previously reported to ETA.

4.   Determine if amounts reported on final cost reports or on the closeout package were
     supported by the Commonwealth’s accounting records.

     We compared the JTPA expenditures reported to the DOL on the closeout package to
     expenditures recorded in the CWD’s accounting records, and found that the amounts
     reported reconciled to the CWD’s official records.

5.   Select a sample of six final closeout reports submitted by subrecipients to the
     Commonwealth, and determine if the subrecipients’ final JTPA expenditures were
     accurately recorded in the Commonwealth’s accounting records.

     We obtained closeout reports submitted to CWD by six subrecipients, and compared the
     final expenditures reflected on the closeout reports to expenditures recorded in the
     Commonwealth’s accounting records. The subrecipients’ final JTPA expenditures were
     accurately recorded in the Commonwealth’s accounting records.

6.   Obtain the Commonwealth’s single audit reports submitted for the two most recent
     fiscal years available, and identify the JTPA expenditures reported on the Schedule
     of Expenditures of Federal Awards (SEFA). Determine if these funds were tested as
     a major program, in accordance with single audit requirements.

     We obtained the Commonwealth’s single audit reports for SFY 2000 and SFY 1999, and
     identified the total JTPA expenditures reported on the SEFA, $31.7 million and $54.4
     million, respectively. The JTPA program cluster was listed as a major program for both
     fiscal years.

7.   Determine if the single audit reports identified reportable conditions, material
     weaknesses, report qualifications, or any other audit issues pertaining to JTPA
     grants that remain unresolved.

     The single audit reports contained two findings that were not fully resolved, as follows:

     A.     In the SFY 1999 Single Audit, finding 99-CWD-7, the auditors found that the
            Cabinet for Workforce Development, Department for Employment Services,
            inappropriately transferred JTPA expenditures among the various
            SubCommonwealth Grantees (SSGs). The finding noted instances in which costs
            of some SSGs had been charged against allotments of other SSGs, resulting in
            disallowed expenditures of $613,950. The single auditors also concluded that
            transferring of expenditures among substate areas circumvented the 20%
            administrative cost limits.

            The SFY 2000 Single Audit noted that CWD resolved the cost allocation portion

                                              6
            of this finding, but the finding was still considered unresolved as to the improper
            transfers and the $613,950 of questioned costs.

     B.     In the SFY 1999 and SFY 2000 Single Audits, findings 99-CWD-9 and 00-CWD-
            23, the auditors reported that the Cabinet for Workforce Development,
            Department for Training and ReEmployment, did not sufficiently track required
            subrecipient audits. In both years, the auditors noted several instances in which
            the Department did not obtain, review, reconcile, and/or resolve subrecipeint
            audits in a timely manner.

8.   Obtain the final cost reports submitted by two subrecipients and determine if the
     amounts reported were supported by the subrecipients’ accounting records.

     We visited two subrecipients, the EKCEP and BTADD. For each subrecipient, we
     compared the final JTPA expenditures reported to the Commonwealth to expenditures
     recorded in the subrecipients accounting systems, and found that the amounts reconciled
     with the following exceptions.

     A.     On December 29, 2000, the JTPA Agreement Closeout Package, Awardee’s
            Release was signed by BTADD indicating an expended amount of $6,074,038.
            However, in summarizing BTADD’s Grant Report/Invoices, the amount expended
            was $6,287,210, an increase in expenditures of $213,172.

            Based on our discussion with BTADD personnel, the difference represents
            expenditures incurred as of June 30, 1999, but not recorded as an accrual for that
            period, because the invoices had not been received. The invoices were
            subsequently received and expensed. A corrected Awardee’s Release was
            prepared by BTADD and signed on May 14, 2002.

     B.     The total amount of the Awardee’s release submitted by EKCEP for the JTPA
            program was $18,711,893 and the expenditures were $19,314,324, for a difference
            of $602,431. However, the $602,431 was reported to the Commonwealth on the
            June 1999 final cost report. The Commonwealth included the correct amount in
            the final FSRs submitted to ETA, however, a revised Awardee’s release was never
            submitted by EKCEP.

9.   Obtain the subrecipients’ single audit reports and identify the JTPA expenditures
     reported on the Schedule of Expenditures of Federal Awards. Determine if the
     amounts agree or were reconciled by the single auditors to the expenditures
     recorded in the accounting records.

     We obtained the single audit reports for both subrecipients visited and identified the
     JTPA expenditures reported on the SEFA. We compared the SEFA expenditures to
     expenditures recorded in the subrecipients accounting records, and found that the
     amounts reconciled.

                                              7
10.   Inspect the single audit reports submitted for the subrecipients and determine if
      there were reportable conditions, material weaknesses, report qualifications, or any
      other audit issues pertaining to JTPA grants that remain unresolved.

      We obtained the single audit reports for both subrecipients visited, and determined that
      the audit reports did not identify any unresolved reportable conditions, material weakness,
      report qualifications or other audit issues which pertained to the JTPA program.




                                               8
                                                                                     EXHIBIT I

                            THE COMPLETE TEXT OF
                       KENTUCKYS’S RESPONSE TO THE DRAFT
                        AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Kentucky’s response to our agreed-upon
procedures report, issued to them on February 11, 2003.




                                                9
10
